   May 13, 2003




Acquisition


Use and Control of Military
Interdepartmental Purchase
Requests at the Air Force
Pentagon Communications Agency
(D-2003-090)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 Fax (703) 604-8932. Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

ABSS                 Automated Business Services System
AFPCA                Air Force Pentagon Communications Agency
CISS                 Center for Information Security Services
CSRD                 Computer Systems Requirements Document
DFARS                Defense Federal Acquisition Regulation Supplement
FMR                  Financial Management Regulation
GSA                  General Services Administration
LAN                  Local Area Network
MIPR                 Military Interdepartmental Purchase Request
O&M                  Operations and Maintenance
SOW                  Statement of Work
ULO                  Unliquidated Obligation
          Office of the Inspector General of the Department of Defense
Report No. D-2003-090                                                     May 13, 2003
 (Project Number D2001CH-0032.003)

Use and Control of Military Interdepartmental Purchase Requests
       at the Air Force Pentagon Communications Agency

                                 Executive Summary

Who Should Read This Report and Why? Officials of the Office of the Assistant
Secretary of the Air Force (Financial Management and Comptroller) should read this
report because it discusses the need to develop and implement standard operating
procedures for processing and managing military interdepartmental purchase requests.

Background. This report is the third in a series of reports on the use and control of
military interdepartmental purchase requests. This report discusses management of
military interdepartmental purchase requests at the Air Force Pentagon Communications
Agency. The Air Force Pentagon Communications Agency provides information system
services and capabilities for Headquarters, Air Force; Office of the Secretary of Defense;
and Joint Staff for military operations and missions. The Air Force Pentagon
Communications Agency develops information technology solutions, supplies
information assurance programs and operations, offers software consultation, and
provides life-cycle support services for operation and maintenance of Headquarters, Air
Force desktop computers.

Military interdepartmental purchase requests are the primary documents DoD
Components use to order goods or services from other DoD Components as well as other
Government activities outside the DoD. During FY 2001, the Air Force Pentagon
Communications Agency issued 87 military interdepartmental purchase requests, valued
at about $12.9 million, to the General Services Administration. We reviewed 36 military
interdepartmental purchase requests valued at about $9.5 million, of which 24 valued at
about $7.1 million were for FY 2001 and 12 valued at about $2.4 million originated
between FY 1997 and FY 2000.
Results. The Air Force Pentagon Communications Agency did not comply with the
Defense Federal Acquisition Regulation Supplement and did not have adequate policies
and procedures for processing and funding military interdepartmental purchase requests.
The audit showed a lack of defined requirements for 8 military interdepartmental
purchase requests valued at about $1.7 million; 5 military interdepartmental purchase
requests valued at about $1.9 million that had no support for the cost basis of the military
interdepartmental purchase request; and 31 military interdepartmental purchase requests
valued at about $8.0 million that did not specify the period of performance for the
services or equipment being acquired. Also, the Air Force Pentagon Communications
Agency had either inadequate or no interagency support agreements in effect with the
General Services Administration offices. Further, the Air Force Pentagon
Communications Agency officials did not adequately document triannual reviews of
Agency unliquidated obligations that involved military interdepartmental purchase
requests. As a result, the Air Force Pentagon Communications Agency did not
effectively manage its funds relating to military interdepartmental purchase requests and
funds available for other missions and needs may have been lost. The Commander, Air
Force Pentagon Communications Agency should comply with the Defense Federal
Regulation Acquisition Supplement guidance and implement management control
procedures that specifically identify the method for identifying agency documentation
used to support a military interdepartmental purchase request. Compliance with guidance
will preclude issuance of military interdepartmental purchase requests without support of
statements of work, cost estimates, and other planning documents. Also, the Air Force
Pentagon Communications Agency should comply with Financial Management
Regulation guidance on triannual reviews and maintain written justification support for
validity decisions on triannual review outstanding unliquidated obligations. The
justification will ensure the basis for the validity decisions are available for management
or an independent review. (finding A)

The Air Force Pentagon Communications Agency inappropriately used about
$1.7 million in operations and maintenance funds rather than procurement funds when
purchasing information technology. As a result, the Air Force Pentagon Communications
Agency may have incurred potential Antideficiency Act violations. To ensure proper use
of appropriated funds, the Commander, Air Force Pentagon Communications Agency
should conduct a preliminary review of the three potential Antideficiency Act violations.
If violations of the Act are confirmed, the Commander should comply with the reporting
requirements in DoD Financial Management Regulation 7000.14-R, volume 14,
“Administrative Control of Funds and Antideficiency Act violations.” (finding B)

A material management control weakness on the planning and funding of military
interdepartmental purchase requests will be resolved with implementation of report
recommendations.

Management Comments. The Deputy Chief of Staff, Installations and Logistics,
U.S. Air Force concurred with the recommendations to improve the Air Force Pentagon
Communications Agency development and management of MIPRs according to DoD
regulations. The Deputy Chief of Staff partially concurred with the recommendation to
conduct a preliminary review of potential Antideficiency Act violations for three MIPRs
by agreeing to conduct a review of MIPR NMIPR0097927756. He believed a
preliminary review of MIPRs MIPR999207724 and MIPR019209420 were unnecessary
because the items purchased were expense items and the use of operation and
maintenance funds was appropriate. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.

Audit Response. The comments by the Deputy Chief of Staff for Installations and
Logistics were partially responsive. We disagree that initiation of a preliminary review
into the circumstances relating to the two MIPRs is not warranted. Such a review as a
minimum would more clearly disclose the facts relating to each of the purchases.
Accordingly, we ask that the Deputy Chief of Staff reconsider his position on
Recommendation B.1. and provide additional comments by July 14, 2003.




                                            ii
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objectives                                                            2

Findings
     A. Management of Military Interdepartmental Purchase Requests    3
     B. Funding of Investment Items                                  11

Appendixes
     A. Scope and Methodology                                        16
          Management Control Program Review                          17
     B. Prior Coverage                                               18
     C. Air Force Pentagon Communications Agency Military
          Interdepartmental Purchase Requests Selected for Review    20
     D. Report Distribution                                          21

Management Comments
     Department of the Air Force                                     23
Background
    The report is one in a series on military interdepartmental purchase requests
    (MIPRs) within DoD. This report discusses MIPRs the Air Force Pentagon
    Communications Agency (AFPCA) issued to the General Services Administration
    (GSA) for acquisition of information technology services or equipment.

    Military Interdepartmental Purchase Requests. The DoD uses MIPRs as the
    primary document to order goods or services from other DoD Components or
    non-DoD Federal activities. MIPRs are prepared on a DD Form 448, “Military
    Interdepartmental Purchase Request,” and include a description of the supplies or
    services requested, unit price, total price, period of performance, and fund cite.
    The MIPRs can be accepted as either a reimbursable or as a direct cite. For a
    reimbursable order, however, the ordering organization should record an
    obligation at the time of acceptance. During FY 2001, AFPCA reported issuing
    169 MIPRs with a total value of about $38.4 million. AFPCA issued 87 MIPRs
    to GSA, comprising 71 Operations and Maintenance (O&M) funded acquisitions
    for about $8.8 million and 16 procurement-funded acquisitions for $4.1 million.

    Air Force Pentagon Communications Agency Mission. The AFPCA provides
    information system services and capabilities for Headquarters, Air Force and the
    Office of the Secretary of Defense and Joint Staff for military operations and
    missions. AFPCA develops information technology solutions, supplies
    information assurance programs and operations, offers software consultation, and
    provides life-cycle support services for the operation and maintenance of
    Headquarters, Air Force desktop computers. In addition, AFPCA provides
    network security for the Air Force Pentagon network that ensures the availability,
    integrity, and confidentiality of information critical to Air Force operations in the
    Pentagon. AFPCA also develops, implements, maintains, and monitors
    computer-based interactive information systems that support resource analysis
    and analyses for strategic, general purpose, and regional programs of the Office of
    the Secretary of Defense. AFPCA consists of 759 employees with operating
    budgets of $81.2 million and $92.0 million, respectively, for FY 2001 and FY
    2002.

    Intragovernmental Support. DoD may enter into interagency agreements with
    other Federal activities when a supplying activity is able to provide the support
    and a determination is approved by the organization head ordering the support.
    Interagency agreements consist of the purpose, scope, responsibilities, duration,
    payment methods, and points of contact. AFPCA interagency agreements with
    GSA permitted GSA to procure on behalf of AFPCA information technology
    hardware, software, and related services from third parties.




                                          1
Objectives
    The audit objective was to evaluate whether MIPR policies and procedures were
    adequate. We also reviewed the management control program as it related to the
    primary audit objective. See Appendix A for a discussion of the scope and
    methodology and the review of the management control program.




                                       2
            A. Management of Military
               Interdepartmental Purchase Requests
            Management controls over MIPRs at AFPCA needed improvement. Of
            36 AFPCA MIPRs, valued at about $9.5 million, reviewed:

                   •   8 MIPRs, valued at about $1.7 million, contained general
                       requirements not supported by documentation;

                   •   5 MIPRs, valued at about $1.9 million, had no documentation
                       that could support the amount of each MIPR; and

                   •   31 MIPRs, valued at about $8.0 million, did not specify either
                       the period of performance for services or the equipment being
                       acquired.

            Also, AFPCA had either inadequate or no interagency support agreements
            in effect with GSA offices. In addition, AFPCA finance officials
            performed inadequately documented reviews of AFPCA unliquidated
            obligations. The conditions existed because the AFPCA did not have
            standard procedures for processing and managing MIPRs, did not provide
            sufficient training to AFPCA personnel on handling MIPRs, and had no
            internal management controls that addressed MIPRs. As a result, AFPCA
            did not effectively manage its MIPR funds and may have lost funds that
            could have been made available for other priorities.


Criteria
     MIPR Policy. In the absence of other specific statutory authority, section 1535,
     title 31, United States Code (31 U.S.C. 1535) governs interagency acquisitions.
     That section is also known as the Economy Act. Section 1501, title 31 of the
     United States Code provides criteria for recording obligations of Government
     funds. The guidance, “Documentary Evidence Requirement for Government
     Obligations,” requires that an amount shall be recorded as an obligation of the
     U.S. Government only when supported by documentary evidence of a binding
     agreement between two agencies and used for specific goods to be delivered, or
     work or services provided.

     Federal Acquisition Regulation Subpart 17.5 – Interagency Acquisitions
     Under the Economy Act. An order may be placed on any form or document
     acceptable to both agencies. The order should include the following information:

            •   description of supplies or services required,

            •   delivery requirements,

            •   funds citation,

                                          3
        •   payment provisions, and

        •   acquisition authority.

        DoD Financial Management Regulation (FMR) 7000.14-R, volume 11A,
        chapter 3, April 2000, stipulates the same items required as listed in
        Federal Acquisition Regulation, Subpart 17.5. The Defense Federal
        Acquisition Regulation Supplement (DFARS) 208.7005 refers to
        DFARS 253.208 for instructions on preparing and using DD Form 448.
        The DFARS 253.208-1, “DD Form 448, Military Interdepartmental
        Purchase Request,” contains requirements for the MIPR.


AFPCA Management Control of MIPRs
        Basis for MIPR. AFPCA develops MIPRs in each of its major
        directorates, which results in variations of information included in the
        MIPRs. AFPCA MIPRs did not contain adequate descriptions that
        explained the services and equipment the MIPR funds were designated to
        acquire. Section 1501, title 31 of the United States Code requires a
        binding agreement in writing. That agreement is required to be executed
        before the end of the period of availability for obligation of the
        appropriation or fund used for specific goods to be delivered, real property
        to be bought or leased, or work or services provided.

        Of 36 MIPRs reviewed, the MIPR support lacked consistency as follows:

            •   8 MIPRs did not contain a statement of work (SOW) or the
                required AFPCA computer systems requirements document
                (CSRD) to define the requirement.

            •   28 MIPRs had documentation supported by either a SOW or a
                CSRD but not both.
            •   2 MIPRs referenced only the CSRD.

            •   None of the MIPRs referenced the SOWs on the MIPR form
                (DD Form 448).

        The SOW and CSRD provide increased justification for the MIPR by
        describing, more specifically, equipment or services. A MIPR reference
        to the SOW and CSRD will improve fulfillment of the Government
        obligation documentary evidence requirement. We believe the MIPR
        description should include a sufficient explanation of the requirement and
        refer to supporting documentation. See Appendix C for a summary of the
        AFPCA MIPRs selected for review.




                                      4
       Basis for MIPR Funding. AFPCA did not consistently maintain the cost
       data or contractor cost proposals that would support the basis for the
       MIPR funding requirements. The MIPRs should provide the cost support;
       and we believe the MIPR description should explain whether funding is in
       support of a new requirement, incremental funding, or exercising an
       option on an existing contract. AFPCA project officers did not know the
       reason why documentation was not available to support MIPR amounts.
       We believe that identifying the basis for the cost to justify the MIPR
       funding required will strengthen AFPCA management controls. Of the 36
       MIPRs reviewed, the basis for the amounts shown in 5 MIPRs was
       unavailable. (Table 1)



                   Table 1.   MIPRs with Unsupported Cost Basis
          MIPR Number                   Date Issued                  Amount

          MIPR019209071                 Jun 7, 2001                  $695,283

          MIPR019209072                 Dec 15, 2000                 $201,035

          MIPR019209213                 Sept 28, 2000                $100,000

          MIPR019209385                 Sept 19, 2001                $175,000

          MIPR029209420                 Sept 27, 2001                $764,200



Period of Performance. AFPCA did not consistently report the period of
performance in the MIPRs, as required by DFARS. DFARS 253.208-1 requires
that delivery schedule data are included on the MIPR. The requiring department
must clearly state for each MIPR the required time of delivery or performance in
each MIPR, ensuring that normal administrative lead time of the particular
commodity is considered. The delivery and performance schedules on MIPRs
must be realistic. For the 36 MIPRs reviewed, 31 did not include the period of
performance on the DD Form 448. Also, 16 of the 36 MIPRs could have easily
contained the period of performance because the data were included in the SOW.

Record Retention. AFCPA personnel who monitored MIPR funds for projects
did not consistently demonstrate a clear understanding of the record retention
requirements applicable to MIPRs. Air Force Instruction 37-138, “Records
Disposition Procedures and Responsibilities,” March 31, 1994, refers to Air Force
Manual 37-139, “Records,” March 1, 1996, for record retention standards.
Air Force Manual 37-139 requires that MIPRs be destroyed 2 years after the
project contract is closed. Records that might have supported the 36 MIPRs
reviewed were either missing or destroyed. We believe that AFPCA should
establish controls requiring that the Air Force record retention policy is
implemented according to Air Force policy.


                                    5
Triannual Reviews
    Unliquidated Obligation. Unliquidated obligations (ULOs) are outstanding
    obligations or liabilities in Government accounting records. A review of ULOs
    can require extensive research and coordination. When an agency pays for
    services or equipment, the expenditure is matched to the ULO in the accounting
    records. A dormant ULO is an obligation with no activity against the funds
    beyond 120 days. Financial managers must be proactively involved in managing
    and clearing ULOs. Managing and clearing ULOs is a recurring requirement
    because certain appropriations are canceled or expire on September 30 of each
    year.

    DoD Financial Management Regulation Guidance. DoD FMR 7000.14-R,
    volume 3, “chapter 8, “Standards for Recording and Reviewing Commitments and
    Obligations,” November 2000, requires that fund holders review commitment and
    obligation transactions for timeliness, accuracy, and completeness three times
    during each fiscal year. The requirement for the review applies to all of the
    appropriations and funds for the DoD Components. The fund holder, AFPCA
    Finance office, is responsible for ensuring that proprietary and budgetary
    accounts are valid, accurate, and reconcilable. The transaction media must be
    such that the review can be documented and individual transactions can be
    annotated if the review reveals further action is required. Also, fund holders are
    required to maintain documentation for 24 months following completion of the
    review that is sufficient to permit independent organizations, such as the Office of
    the Inspector General of the Department of Defense or the DoD Component Audit
    Agency, to verify the reviews were accomplished as required.

    Documentation of Triannual Review. As a fund holder, the AFPCA Finance
    office could not provide sufficient support for its decision to categorize MIPRs as
    valid, accurate, and reconciled in the triannual reviews. We judgmentally
    reviewed the triannual review report data that contained AFPCA MIPRs for three
    different periods as follows:
           •   FY 2001 3rd period high dollar ULOs,
           •   FY 2002 1st period dormant obligations, and
           •   FY 2002 2nd period high dollar ULOs.
    Triannual reviews cover periods October through January, February through May,
    and June through September of each fiscal year. From our judgmental sample of
    36 MIPRs reported on the 3 triannual reviews, we identified 4 MIPRs, reported as
    either a dormant obligation or high dollar ULO and each greater than $50,000.
    The triannual review contains separate reporting for dormant obligations and high
    dollar ULOs. The triannual review reports a document identification number
    used to identify the MIPR number, the ULO balance, an amount paid out against
    the obligation in the current fiscal year, and other coding information applicable
    to the fund cite. To verify the basis for their resolution, we reviewed the AFPCA
    actions for reported dormant obligations and high dollar MIPRs. AFPCA
    categorized the four MIPRs as valid obligations. (Table 2)


                                         6
                     Table 2.   AFPCA Triannual Review Results

           MIPR                     ULO Amt             Period          ULO Status

           NMIPR019209071           $695,283        FY 01 3rd period        Valid

           NMIPR019209413           $201,000        FY 02 2nd period        Valid

           NMIPR019209420           $764,200        FY 02 2nd period        Valid

           NMIPR019209213           $100,000        FY 02 2nd period        Valid



    To each outstanding ULO, AFPCA assigns a letter code that designates its current
    status. No written explanation that supports the basis for the determination is
    provided. Without an explanation, independent assessment is inhibited and may
    result in an improper basis for resolving outstanding ULOs in the triannual
    reviews. The potential for the latter could occur if reliance is solely on GSA fund
    status without checking with the AFPCA contracting officer technical
    representatives or with the Defense Finance and Accounting Service. AFPCA
    sent MIPRs to various GSA activities to obtain services and equipment. For
    MIPRs sent to the GSA Center for Information Security Services (CISS), CISS
    periodically combines funds from MIPRs under one GSA account, which results
    in an inability to assess whether the funds are still needed. Auditors were
    informed that as part of the triannual review, GSA may be contacted to determine
    the validity of a dormant obligation. GSA CISS tracking of MIPRs does not
    consistently allow for identifying a specific MIPR ULO balance. AFPCA should
    document work performed to provide a basis for the validity of the ULOs reported
    in the triannual reviews. The AFPCA triannual reviews of the three ULO reports
    we examined were signed by AFPCA Financial Management; however, AFPCA
    did not maintain documentation of followup work performed that would enable
    verification of assessment decisions made on AFPCA MIPRs reported as part of
    the triannual reviews. Improved documentation will provide DoD management
    and outside reviewers with the ability to evaluate the accuracy and reliability of
    the triannual reviews. Without detailed evaluations, funds that could have been
    used for other priorities may be lost.


Interagency Agreement between AFPCA and GSA
    Interagency Agreement. Only two of four GSA activities that received AFPCA
    MIPRs from our judgmental sample had an interagency agreement in effect. Of
    the 36 judgmentally sampled MIPRs, 15 MIPRs were assigned to the GSA
    Heartland Region, 17 MIPRs to the CISS, 2 MIPRs to the Federal Systems
    Integration and Management Center, and 2 MIPRs to the Office of Information
    Technology Solutions. The GSA Heartland Region and the Federal Systems

                                         7
    Integration and Management Center had an interagency agreement in effect. The
    purpose of the interagency agreements was to establish terms and conditions by
    which information technology acquisition services would be provided.

    DoD Policy on Intragovernmental Support. DoD Instruction 4000.19,
    “Interservice and Intragovernmental Support,” August 9, 1995, implements
    policy, procedures, and responsibilities for intragovernmental support as a result
    of agreements among Federal Government activities. DoD activities may enter
    into interagency agreements with non-DoD Federal activities when funding is
    available to pay for the support, the agreement is in the best interest of the
    Government, the supplying activity is able to provide the support, the support
    cannot be provided as conveniently or cheaply by a commercial enterprise, and
    the agreement does not conflict with any other agency’s authority.
    Determinations must be approved by the head of the major organizational unit
    ordering the support and attached to the agreement.

    Interagency Agreement Provisions. The interagency agreements did not
    include determinations and the billing and disbursement process as DoD
    Instruction 4000.19 requires. The interagency agreement between AFPCA and
    the GSA Heartland Region was not complete and provisions of the agreement
    were not enforced. For example, AFPCA did not conduct a post-audit review nor
    was one planned as stipulated in the agreement. The agreement lacks the detail
    sufficient to cover the scope of a post-audit review, such as specifying who will
    perform the review and dates to be performed. AFPCA should develop support
    agreements for all GSA activities that cover their intragovernmental business.
    The agreements should identify the terms and conditions for services provided
    and establish provisions that will account for financial activity by requiring a
    description of the billing and disbursement process. We believe explicit terms
    and conditions established within an agreement that is fully implemented will
    result in increased accountability of MIPR funds by AFPCA over its
    intragovernmental activities.


Lack of Procedures
    AFPCA did not have internal procedures that described the method for
    completing a MIPR that would ensure the MIPR was complete and supported.
    Also, AFPCA had no established procedures that described a method for
    resolving outstanding ULOs that arise in the triannual reviews. MIPR training
    addressing requirements to complete a MIPR was insufficient. The AFPCA uses
    the Automated Business Services System (ABSS), an Air Force standard system
    for processing financial documentation, to develop a DD Form 448. Although
    AFPCA personnel received ABSS training, our review of the ABSS instructions
    relied upon for completing a MIPR did not reference applicable DoD guidance.
    Also, MIPRs were developed in different offices within AFPCA and personnel
    did not have a consistent understanding of how to develop and process MIPRs.
    AFPCA personnel have relied on others for explaining how to complete a MIPR
    or to develop the MIPR in the absence of detailed instructions and limited
    training.


                                         8
Conclusion
    AFPCA does not have internal procedures to develop and process MIPRs and to
    certify triannual reviews. The lack of a standardized process for developing
    MIPRs contributes to an environment where the potential exists for AFPCA to
    issue MIPRs that lack an adequate definition of the requirement, the period of
    performance, and a basis for the cost of the MIPR requirement. Also, the lack of
    documentation that supports the resolution of outstanding ULOs identified in
    triannual reviews limits oversight to ensure funds are still required to support
    projects. The AFPCA management control program did not include a review of
    MIPRs to assess their process. The combination of those conditions results in an
    increased risk in the development and tracking of MIPRs and an increased risk to
    the management of funds relating to MIPRs.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend the Commander, Air Force Pentagon Communications
    Agency:

           1. Comply with Federal Acquisition Regulation and Defense Federal
    Acquisition Regulation Supplement policy for developing military
    interdepartmental purchase requests and develop procedures that
    implement section 1501, title 31, United States Code for identifying agency
    support for a military interdepartmental purchase request.

         2. Develop standard operating procedures for processing and
    managing military interdepartmental purchase requests.

            3. Comply with DoD Financial Management Regulation 7000.14-R,
    volume 3, chapter 8 for performing and documenting triannual validation
    reviews of unliquidated obligations and develop management control
    procedures that implement the Financial Management Regulation to
    specifically include that written justification support is maintained.

           4. Establish training for developing and processing military
    interdepartmental purchase requests.

           5. Establish and implement interagency agreements with activities
    receiving military interdepartmental purchase requests from the Air Force
    Pentagon Communications Agency.




                                        9
Management Comments. The Deputy Chief of Staff, Installations and Logistics,
U.S. Air Force, concurred with each of the five recommendations designed to
improve AFPCA development, processing and management of military
interdepartmental purchase requests. The Deputy Chief of Staff agreed to
implement the first three recommendations by May 2003 and the last two
recommendations by September 2003.

Audit Response. The Deputy Chief of Staff’s comments are responsive. No
further action is necessary.




                                 10
           B. Funding of Investment Items
           AFPCA obligated about $1.7 million of O&M funds instead of
           procurement funds for three MIPRs issued to GSA for information
           technology. That condition occurred because AFPCA program managers
           did not always decide which type of funds were to be used by coordinating
           with the Financial Management Branch or legal counsel. As a result,
           AFPCA may have incurred three separate Antideficiency Act violations
           by using the wrong appropriation.


Funding Guidance
    The criterion for using O&M funds is based on the unit cost of a complete system
    rather than on individual items of equipment or components that, when
    aggregated, would become a system. The concept of a system must be considered
    in evaluating the procurement of an individual end item because a system is
    comprised of a number of components that are part of, and function within, the
    context of a whole and satisfy a documented requirement. For new requirements
    that necessitate adding, replacing, or modifying equipment or software that is a
    component of, or supports the functioning of an existing system, only the
    additional equipment and software procurement costs will be used when
    determining whether the procurement costs should be treated as an expense or as
    investment costs. Existing system upgrades that involve multiple equipment
    component and software changes combined to address validated system
    deficiencies or improve system performance are treated as new equipment or
    system procurement in determining the applicability of the expense and
    investment criteria.

    O&M Appropriations. Expenses incurred in continuing operations and current
    expenses are budgeted in the O&M appropriation. According to DoD
    FMR 7000.14-R, volume 2A, chapter 1, “General Information,” modernization
    costs under $100,000 are considered expenses, as are one-time projects such as
    developing planning documents and studies. When new requirements necessitate
    adding, replacing, or modifying equipment or software that is a component of, or
    supports the functioning of an existing system, the additional equipment and
    software costs will be used to determine the investment costs. Further, a valid
    requirement may not be fragmented or acquired in a piecemeal fashion to
    circumvent the expense and investment criteria policy.

    Procurement Appropriations. DoD FMR 7000.14-R, volume 2A, contains
    guidance in designating appropriation funds for procurement of information
    technology. Acquiring and developing a complete system with a cost of $100,000
    or more is an investment and should be budgeted with procurement
    appropriations. For system modification efforts, only the cost of the upgrade (for
    example, new software, hardware, and labor) is counted toward the $100,000
    threshold. The costs will benefit future periods and generally are of a long-term
    character such as real property. The validated requirement may not be
    fragmented or acquired in a piecemeal fashion to circumvent the expense and
    investment criteria policy.
                                        11
    Funding Guidance for Local Area Networks. Air Force Instruction 65-601,
    volume 1, “Budget Guidance and Procedures,” November 17, 2000, states that
    Local Area Networks (LANs) consist of any equipment that is integral to the
    operation of a LAN system. The equipment includes file servers, cable, personal
    computers, and other support components such as line drivers or multiplexes.
    The total cost for each LAN system is considered when applying the $100,000
    expense and investment criteria to a procurement action. Additional LAN
    installation costs (for example, quality assurance, system engineering, equipment
    installation, and testing) are included in the aggregate cost of equipment items
    acquired to make the LAN system operate. The expense and investment threshold
    applies to the aggregate cost of the entire system.

    Definition of Information Technology System. DoD FMR, volume 2B,
    chapter 18, “Information Technology and National Security Systems,” June 2000,
    defines a system as a combination of computer hardware and computer software,
    data, and telecommunication that performs functions such as collecting,
    processing, transmitting, and displaying information.


Planning for Information Technology Projects
    AFPCA did not identify or maintain written documentation that supported the
    basis for use of the designated O&M funds prior to sending the MIPRs to GSA.
    Of the 36 MIPRs reviewed, we identified the following 3 MIPRs with a total
    value of about $1.7 million that should have designated procurement funds.

    NMIPR0097927756. The MIPR was issued on September 15, 1997, with
    $500,000 in O&M funds to provide funding for servers, new server architecture,
    hard drives, and software, among other information technology components, for
    the Secretary of the Air Force, Financial Management Branch. AFPCA
    management did not indicate whether coordination on the use of funds occurred
    with the Financial Management Branch. Project file records did not indicate
    whether the new server architecture was to support a new LAN or modify an
    existing LAN resulting in support of a system. The dollar value of $500,000
    exceeds the $100,000 expense threshold for LANs that Air Force
    Instruction 65-601, volume I establishes. The use of O&M funds is inappropriate
    for new server architecture.

    NMIPR999207724. The MIPR was issued on September 20, 1999, with
    $411,160 in O&M funds to procure LAN installation, information processing
    equipment, and engineering, services, Web system engineering, and
    administrative services for AFPCA. AFPCA management did not coordinate with
    the Financial Management Branch or legal counsel on the designated appropriated
    funds. Funds were used for several network encryption systems and supporting
    equipment racks. The resources were for LAN installation. The dollar value of
    $411,160 exceeds the $100,000 expense threshold for LANs that Air Force
    Instruction 65-601, volume I establishes. Furthermore, the equipment purchase
    list exceeds the investment criteria of $100,000, supporting the need to use
    procurement funds.


                                       12
    MIPR019209420. The MIPR was issued on September 27, 2001, with $764,200
    in O&M funds and was intended for Secret Internet Protocol Router Network
    LAN installation and information processing equipment for Headquarters,
    Air Force. The funds were used to acquire information technology equipment
    such as desktop computers, printers, and connection support equipment. The
    information technology equipment required the use of procurement funds because
    the equipment was to be added to an existing network system and, therefore,
    represented a modification of an existing LAN. The funding decision on the type
    of appropriated funds to support the project was not documented. In addition, we
    found no indication of any coordination with legal counsel on the decision to use
    O&M versus procurement funds. The MIPR was also above the $100,000
    threshold that Air Force Instruction 65-601, volume I establishes.

    In addition to the dollar threshold, we considered the expected useful life of the
    information technology equipment to determine if future periods benefited. The
    Gartner Group provides research and consulting services required for efficient
    and effective use of information technology. The Gartner Group establishes
    industry benchmarks and maintains a proprietary research methodology as well as
    a diverse client base of both information technology vendors and implementors.
    The Gartner Group methodology clearly showed that the useful life of personal
    computer equipment exceeded 1 year. According to the Gartner Group criteria,
    typically, the useful life determination is:

           •   2 to 3 years for network equipment, such as switches and routers,
           •   3 years for desktop personal computers,
           •   3 years for peripherals such as printers, and
           •   5 years for servers.

    Useful life is defined as the period during which such equipment provides
    adequate capability, without substantial upgrade, for the planned workload.
    Useful life also includes any consideration for repair costs, as well as
    functionality. The planned equipment acquisition using the MIPR funds would
    benefit future periods. Accordingly, procurement funds should have been used
    instead of O&M funds.


Funding for Information Technology Projects
    AFPCA internal operating procedures provide, in general, terms for using O&M
    funds versus procurement funds. Investment funds are used if the single unit of
    equipment or the total cost of the project exceeds $100,000 and the acquisition is
    in support of a system. AFPCA procedures reference the Air Force
    Instruction 65-601, volume 1. However, no written basis is required for the
    decision to use O&M funds versus procurement funds. Although AFPCA
    procedures did not require a written basis, the three MIPRs described did not
    contain documentation that explained the decision for the appropriation selected.
    Also, a senior manager who may have provided a basis for the funding decisions


                                        13
     was no longer available. Further, AFPCA procedures did not require that project
     officers coordinate with the AFPCA Financial Management Branch to ensure the
     proper appropriation was used.

Potential Antideficiency Act Violations
     Potential Antideficiency Act violations occur when an organization uses funds for
     the wrong year, wrong appropriation, or has not established a bona fide need for
     the goods or services. Air Force Instruction 65-608, “Anti-Deficiency Act
     Violations,” May 1, 1998, requires that the Air Force establish and operate a
     system of administrative controls over appropriated funds. The controls are
     designed to regulate the management approval levels for obligations given the
     purpose for which the funds are used. AFPCA failed to develop controls and thus
     did not properly distinguish between the use of O&M funds versus procurement
     funds for about $1.7 million obligated on three MIPRs.


Conclusion
     Purchase of the completed software, hardware, and LANs requires the use of
     procurement funds if the purchase exceeds the $100,000 investment threshold.
     To determine whether an investment item exceeds the $100,000 threshold, the
     FMR precludes piecemeal procurements. The FMR requires that an organization
     consider total system cost, rather than the individual component costs of a system,
     when determining whether to use O&M funds or procurement funds. AFPCA
     should review whether O&M funds or procurement funds were appropriate for the
     three MIPRs cited in this audit based on funding guidance established in the
     FMR, and then make any necessary funding adjustments. In addition, AFPCA
     should establish controls that require documenting the basis for the type of
     appropriation used and obtain concurrence from AFPCA Finance to ensure the
     proper type of funds are designated for MIPRs to be issued.


Recommendations, Management Comments, and Audit
  Response
     B. We recommend that the Commander, Air Force Pentagon
     Communications Agency:

             1. Conduct a preliminary review for the potential Antideficiency Act
     violations on NMIPR0097927756 for new server architecture;
     NMIPR999207724 for local area network installation, information
     processing equipment, and engineering services; and MIPR019209420 for the
     Secret Internet Protocol Router Network installation and information
     processing equipment.



                                         14
      2. Comply with the reporting requirements in DoD Financial
Management Regulation 7000.14-R, volume 14, “Administrative Control of
Funds and Antideficiency Act Violations,” if any violations occurred.

      3. Provide a copy of the preliminary review report to the Inspector
General of the Department of Defense.

       4. Comply with DoD FMR 7000.14-R and Air Force Instruction
65-601 guidance for citing an appropriation to fund military
interdepartmental purchase requests and obtain concurrence from the Air
Force Pentagon Communications Agency, Financial Management Branch.

Management Comments. The Deputy Chief of Staff, Installations and Logistics,
U.S. Air Force, partially concurred with the recommendations. A preliminary
review has begun for the potential Antideficiency Act violation on MIPR
NMIPR0097927756. However, the Deputy Chief of Staff believed that MIPRs
NMIPR999207724 and MIPR019209420 were to procure expense items and met
the criteria to use operation and maintenance funds.

Audit Response. The Deputy Chief of Staff’s comments were partially
responsive. AFPCA did not provide additional documentation that supported its
position that three separate requirements applied to the NMIPR999207724.
AFPCA policy requires a CSRD for each information technology need, but we
found only a single CSRD was available to support this requirement. The MIPR
MIPR019209420 is in support of Headquarters, Air Force. It was for network
connections, computers and other associated purchases for use on the SIPRNET.
The information technology equipment has been used in conjunction with this
network, resulting in Information Technology purchased equipment operating
within a network and not independent in “stand alone” mode. Accordingly, we
believe potential violations of the Antideficiency Act still exist and only the
initiation of a preliminary review will gather the details and determine if a
violation of the Antideficiency Act occurred.




                                   15
Appendix A. Scope and Methodology
   We reviewed AFPCA use and control of MIPRs. We reviewed:

          •   MIPRs that AFPCA issued to examine the MIPR completeness,
          •   cost basis for contractor proposals and cost estimates that supported
              each MIPR,
          •   appropriateness of O&M funds versus procurement funds for
              information technology acquisitions,
          •   AFPCA actions to validate unliquidated obligation balances reported
              in triannual reviews, and
          •   adequacy of implementation of the AFPCA interagency agreement
              with the GSA Heartland Region.

   We judgmentally selected 36 AFPCA MIPRs, valued at $9,452,602, sent to GSA.
   We initially selected 12 out of 33 MIPRs based solely on information obtained
   from the GSA CISS for FY 1997 through FY 2000. To increase our ability to
   compare AFPCA use and control of MIPRs, we reviewed another 24 MIPRs out
   of 169 MIPRs based on a complete list of AFPCA MIPRs sent to GSA, which
   included other GSA activities aside from GSA CISS for FY 2001. Our selection
   was primarily based on MIPRs issued close to the end of the fiscal year. We
   limited our audit scope to AFPCA MIPRs issued to the GSA Information
   Technology Fund. We performed this audit from October 2001 through
   November 2002 in accordance with generally accepted government auditing
   standards. To accomplish the audit objectives, we reviewed AFPCA MIPR
   requirement and financial cost data, GSA, and the Defense Finance and
   Accounting Service records. We interviewed AFPCA project officers responsible
   for managing MIPR transactions and obtained pertinent data relating to the MIPR
   processing and training, as well as knowledge and awareness of MIPR
   procedures. We also interviewed AFPCA officials to determine the method of
   review to resolve triannual review unliquidated obligations. We relied upon the
   Financial Management Directorate of AFPCA for figures on the budget and
   staffing.

   Use of Computer-Processed Data. We obtained a computerized listing of
   MIPRs from AFPCA for FY 2001. Although we did not perform a reliability
   assessment of the computer-processed data, we compared the automated data with
   the data contained on each MIPR DD Form 448 that we examined. The data
   from both sources agreed. We also obtained computer-based documentation from
   AFPCA concerning AFPCA ULOs, but did not rely on the data because
   documentation of how AFPCA resolved ULOs was inadequate. We did not use
   the data to make projections, conclusions or recommendations.

   Use of Technical Assistance. We obtained legal assistance from the Office of
   General Counsel for DoD concerning AFPCA compliance with laws and
   regulations related to the potential Antideficiency Act violations. Also, the
   Technical Support Division of the Deputy Inspector General for Auditing

                                      16
    provided assistance in determining whether purchases of acquisitions of
    information technology hardware and software resulted in new systems, system
    modification, or additions to existing systems.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD high-risk area identified as “confront and transform pervasive,
    decades-old financial management problems.”


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of management controls over MIPRs. Specifically, our assessment
    examined the management control program to determine the level of coverage of
    the MIPR process to include how AFPCA plans and funds interagency
    transactions with GSA.

    Adequacy of Management Controls. We identified material management
    control weaknesses for AFPCA, as defined by DoD Instruction 5010.40. AFPCA
    management controls for planning and funding interagency transactions with
    GSA did not ensure that planning and cost estimate documents were prepared to
    support the amount and type of funding used for the interagency transactions with
    GSA. AFPCA interagency acquisitions using MIPRs were not evaluated to
    provide assurance of compliance with regulatory requirements.
    Recommendations A.1., A.2., A.3., A.4., A.5., and B.4., if implemented, will
    assist in correcting the weaknesses. A copy of this report will be provided to the
    senior official responsible for management controls in the Air Force.

    Adequacy of Management's Self-Evaluation. The AFPCA management control
    program does not include interagency acquisitions using MIPRs as an assessable
    unit and, therefore, did not identify or report material control weaknesses
    identified by the audit.




                                        17
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD), the Air Force Audit Agency, and the GSA Inspector General issued
    reports that discuss DoD funding of procurements for support services and
    information technology through the GSA Information Technology Fund.


IG DoD
    IG DoD Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    IG DoD Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

    IG DoD Report No. D-2001-034, “Army Healthcare Enterprise Management
    System,” January 16, 2001

    IG DoD Report No. D-2000-104, “Control Over Obligations at Washington
    Headquarters Services,” March 22, 2000

    IG DoD Report No. D-2000-063, “Information Technology Funding in the
    Department of Defense,” December 17, 1999

    IG DoD Report No. D-2000-030, “Recording Obligations in Official Accounting
    Records,” November 4, 1999


Air Force Audit Agency
    AFAA Audit Report, “Use and Control of Military Interdepartmental Purchase
    Requests,” December 11, 2000

    AFAA Installation Audit Report, “Military Interdepartmental Purchase Requests,
    Air Force Flight Test Center, Edwards Air Force Base, California,” November 30,
    2000

    AFAA Installation Audit Report, “Use and Control of Military Interdepartmental
    Purchase Requests Oklahoma City Air Logistics Center Tinker Air Force Base,
    Oklahoma,” August 3, 2000

    AFAA Installation Audit Report, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Logistics Centers,” May 2, 2000



                                      18
    AFAA Installation Audit Report, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Logistics Centers, Sacramento Air Logistics
    Center,” December 3, 1999

    AFAA Audit Report, “Military Interdepartmental Purchase Requests Issued to the
    General Services Administration, Launch Programs Directorate, Space and
    Missile Systems Center, Los Angeles Air Force Base, California,”
    March 19, 1997

    AFAA Audit Report, “Military Interdepartmental Purchase Requests issued to the
    General Services Administration, Satellite and Launch Control Systems Program
    Office, Space and Missile Systems Center, Los Angeles Air Force Base,
    California,” February 10, 1997

    AFAA Audit Report, “Military Interdepartmental Purchase Requests issued to the
    General Services Administration, Defense Meteorological Satellite Program,
    Space and Missile Systems Center, Los Angeles Air Force Base, California,”
    December 20, 1996


General Services Administration
    GSA Inspector General, Report No. A001031, “Review of Center for Information
    Security Services Federal Technology Service,” February 22, 2001




                                      19
Appendix C. AFPCA MIPRs Selected for Review

                                                                                                    PERFORM     COST
MIPR NUMBER               AMOUNT                  MIPR DESCRIPTION                      SOW   CSRD PERIOD     ESTIMATES

NMIPR999207724            $ 411,160 To provide funds to Air Force Cable Pull Account    No     No     No         **
MIPR009209084                 69,627 Procurement & Installation, Removal of Furniture   Yes    No     No         **
NMIPR0097927695               60,000 Funding for the AFPCA Cable Pulling Account        No     No     No         **
NMIPR0097927756              500,000 Funding for New Sever Architecture                 No     No     No         Yes
NMIPR0097927812              184,800 Development of the Single Agency Manager           Yes    No     No         **
NMIPR0097927849               75,000 Funding for the AFPCA Cable Pulling Account        No    Yes     No         **
NMIPR0098927113              780,000 Development of the Single Agency Manager           Yes    No     No         **
NMIPR0098927113 (A1)          30,000 Provide additional funds, Task No. 1               Yes    No     No         **
NMIPR0098927113 (A2)          66,500 Provide additional funds, Task No. 1               Yes    No     No         **
NMIPR0098927113 (A3)          70,188 Provide additional funds, Task No. 1               Yes    No     No         **
NMIPR0098927113 (A4)          31,000 Provide additional funds, Task No. 1               Yes    No     No         **
NMIPR0098927601              108,000 Funding for Lan Installation                       No    Yes     No         **
MIPR019209002                727,023 Engineering and Installation Services              Yes    No     No         Yes
MIPR019209011                129,735 Fund Certification and Security Project            Yes    No     No         Yes
MIPR019209061                800,000 Fund Object Web Development                        Yes   Yes     No         Yes
MIPR019209061 (A1)           260,000 Funding for Object Web Development                 Yes   Yes     No         Yes
MIPR019209061 (A2)            62,000 Funding for Object Web Development                 Yes    No     No         Yes
MIPR019209061 (A3)            90,000 Funding for Object Web Development                 Yes   Yes     No         Yes
MIPR019209071                695,283 Support National Military Command Center           Yes    No     Yes        No
MIPR019209072                201,036 Support National Military Command Center           No     No     Yes        No
MIPR019209085                 76,000 Extend Telos Contract                              Yes    No     Yes        Yes
MIPR019209085 (A1)           266,000 Extend Telos Contract                              Yes    No     Yes        Yes
MIPR019209105                510,000 Fund AFPCA Service Contract                        Yes    No     No         Yes
MIPR019209105 (A1)           194,000 Fund Increase                                      Yes    No     No         Yes
MIPR019209106                217,768 Fund AFPCA Pickup and Delivery                     Yes    No     No         Yes
MIPR019209107                888,698 Technical Engineering and Support of Client        Yes    No     No         Yes
MIPR019209107 (A1)            22,594 Technical Engineering and Support of Client        Yes    No     No         Yes
MIPR019209210                178,994 AFPCA Project Management and Engineering           Yes    No     Yes        Yes
MIPR019209213                100,000 Installation and Management Support                No    Yes     No         No
MIPR019209230                150,000 Procure Constant Vision Software                   Yes    No     No         Yes
MIPR019209361                274,684 System Furnishing for National Command Center      No     No     No         Yes
MIPR019209361 (A1)            18,934 Replace Module Furnishings                         No     No     No         Yes
MIPR019209361 (A2)            63,378 Fund Increase for Acquisition System Furnishings   No     No     No         Yes
MIPR019209385                175,000 Threat Related Attribution System Migration        Yes    No     No         No
MIPR019209413                201,000 Network Services (Servers, Systems, and Labor)     No     No     No         Yes
MIPR019209420                764,200 "E" Ring Project (Installation and Servers)        No    Yes     No         No
 Total                    $9,452,602
** Incomplete Files
CSRD - Computer Systems Requirements Document
SOW - Statement of Work

                                                             20
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff (Installations and Logistics)
Commander, Air Force Pentagon Communications Agency
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, General Services Administration




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Air Force Comments




                     23
24
25
26
27
28
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Terry L. McKinney
Eric B. Edwards
Martin I. Gordon
George A. Ford
LaVina N. Mensah
Sharon L. Carvalho
